BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Petition for Writ of
Certiorari in Stephen S. Wise Temple v. Julie Su, as
Labor Commissioner, etc., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service, and e-mail to the following
parties listed below, this 17th day of September, 2019:
David M. Balter
Division of Labor Standards Enforcement
Department of Industrial Relations
State of California
455 Golden Gate Avenue, 9th Floor
San Francisco, California 94102
(415) 703-4963
D Balter@dir.ca. gov
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
pa ul.clement@kirkland.com
erin.murphy@kirkland.com
an drew .lawrence@kirkland.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 17, 2019.

Donna J. Wo
e+:'\
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~
0

Notary &k
[seal]

